APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(September 25, 2020) . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court Eastern
District of California
(November 20, 2018) . . . . . . . . . . App. 61
Appendix C Judgment in a Civil Case in the
United States District Court Eastern
District of California
(August 16, 2018) . . . . . . . . . . . . App. 67
Appendix D Verdict Form in the United States
District Court Eastern District of
California
(August 15, 2018) . . . . . . . . . . . . App. 68
Appendix E Order in the United States Court of
Appeals for the Ninth Circuit
(November 16, 2020) . . . . . . . . . . App. 75

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-17404
D.C. No. 2:15-cv-00531-MCE-KJN
[Filed: September 25, 2020]
__________________________________________
TAN LAM, as Successor-In-Interest to
)
decedent Sonny Lam (aka Son Tung Lam), )
Plaintiff-Appellee,
)
)
v.
)
)
CITY OF LOS BANOS, a Municipal
)
Corporation,
)
Defendant,
)
)
and
)
)
JAIRO ACOSTA, Police Officer for the
)
City of Los Banos,
)
Defendant-Appellant.
)
__________________________________________)
OPINION

App. 2
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Argued and Submitted May 12, 2020
San Francisco, California
Filed September 25, 2020
Before: Sidney R. Thomas, Chief Judge, and Michelle
T. Friedland and Mark J. Bennett, Circuit Judges.
Opinion by Chief Judge Thomas;
Dissent by Judge Bennett
__________________________________________________
SUMMARY*
__________________________________________________
Civil Rights
The panel affirmed in part and reversed in part the
district court’s (1) judgment for plaintiff following a
jury verdict; and (2) denial of defendant’s motion
pursuant to Fed. R. Civ. P. 50(b) for judgment as a
matter of law in an action brought pursuant to 42
U.S.C. § 1983 and state law alleging that defendant, a
police officer, used excessive deadly force when he shot
plaintiff’s son.
A jury specifically found that plaintiff’s son, Sonny
Lam, had stabbed Officer Acosta in the forearm with a
pair of scissors prior to Acosta firing his first shot, that
Acosta had retreated, and that Sonny did not approach
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
Acosta with scissors before Acosta fired a fatal second
shot. The panel held that this case was largely
controlled by deferential standards of review.
The panel held that viewing the evidence in the
light most favorable to plaintiff, as it was required to
do at this juncture, the evidence sufficiently supported
the jury’s special findings that Sonny did not approach
Officer Acosta with scissors prior to Acosta firing the
second shot. The panel therefore concluded that the
district court did not err in denying Acosta’s Rule 50(b)
sufficiency of the evidence motion.
The panel held that the district court properly
denied the Rule 50(b) motion on qualified immunity as
to plaintiff’s Fourth Amendment claim. The panel held
that the law was clearly established at the time of the
shooting that an officer could not constitutionally kill
a person who did not pose an immediate threat. The
law was also clearly established at the time of the
incident that firing a second shot at a person who had
previously been aggressive, but posed no threat to the
officer at the time of the second shot, would violate the
victim’s rights. In sum, the trial evidence, construed in
the light most favorable to plaintiff, did not compel the
conclusion that Acosta was entitled to qualified
immunity.
The panel held that there was insufficient evidence
to support the jury’s verdict in favor of plaintiff on his
Fourteenth Amendment claim for loss of a familial
relationship. The panel held that there was insufficient
evidence showing that Acosta acted with a purpose to
harm unrelated to a legitimate law enforcement
objective. Because the record was devoid of this

App. 4
evidence and the jury found only that Acosta acted
“with a purpose to harm,” and not a purpose to harm
unrelated to a legitimate law enforcement objective,
plaintiff failed to show that Acosta committed a
Fourteenth Amendment violation. Therefore, the panel
reversed the jury’s verdict for plaintiff on the
Fourteenth Amendment claim and remanded to the
district court for further proceedings.
The panel held that district court did not commit
plain error in its admission of evidence that Acosta had
experienced post-traumatic stress disorder (“PTSD”).
The panel further noted that Acosta did not appeal the
merits of the jury’s decisions on the state law
negligence claims.
Dissenting, Judge Bennett stated that Officer
Acosta was entitled to qualified immunity on plaintiff’s
Fourth Amendment claim because plaintiff identified
no clearly established law that would have put Officer
Acosta on notice that his actions violated the Fourth
Amendment. Judge Bennett further stated that given
the complete lack of evidence showing that Officer
Acosta suffered from PTSD at the time of the 2013
incident in question, the district court plainly erred in
allowing plaintiff to admit evidence of Officer Acosta’s
2011 PTSD diagnosis.
__________________________________________________
COUNSEL
Suzanne M. Nicholson (argued), Sacramento,
California; Kevin P. Allen, Allen Glaessner Hazelwood
& Werth LLP, San Francisco, California; for
Defendant-Appellant.

App. 5
Adanté D. Pointer (argued), Ayana C. Curry, and John
L. Burris, Law Offices of John L. Burris, Oakland,
California, for Plaintiff-Appellee.
Lee H. Roistacher, Daley & Heft LLP, Solana Beach,
California, for Amici Curiae California State
Association of Counties and League of California Cities.
James R. Touchstone and Denise L. Rocawich, Jones &
Mayer, Fullerton, California, for Amici Curiae
California State Sheriffs’ Association, California Police
Chiefs Association, and California Peace Officers’
Association.
__________________________________________________
OPINION
THOMAS, Chief Judge:
Sonny Lam died after he was shot twice inside his
home by a City of Los Banos police officer. A jury
specifically found that Sonny had stabbed the officer in
the forearm with a pair of scissors prior to the first
shot, that the officer had retreated after firing the first
shot, and that Sonny did not approach the officer with
scissors before the officer fired the fatal second shot.
Sonny’s father, Tan Lam, filed a complaint alleging
violations of constitutional rights under 42 U.S.C.
§ 1983 and state law negligence claims. The officer
appeals the jury verdict in Lam’s favor on those claims.
Giving deference to the jury’s findings and drawing
all reasonable inferences in Lam’s favor, see Ostad v.
Or. Health Scis. Univ., 327 F.3d 876, 881 (9th Cir.
2003), we affirm the district court’s judgment on the
Fourth Amendment claim. On the Fourteenth

App. 6
Amendment claim, we reverse the district court’s
denial of the officer’s renewed motion for judgment as
a matter of law and remand to the district court for
further proceedings.
I
A1
At the time of the incident, Tan Lam—then 80 years
old—lived with his 42-year-old son, Sonny Lam, at
Sonny’s home in Los Banos, California. Sonny had
Type 2 diabetes and a history of mental health issues
that included symptoms such as “hearing voices.” In
the past, Sonny generally managed these mental
health issues with medication, but he had stopped
taking his medications, which caused his mental and
physical health to deteriorate. At the time of this
incident, Sonny was 5’ 8”, weighed 136 pounds, and
was very frail. In the afternoon of September 2, 2013,
Sonny became agitated, swearing at and unsuccessfully
attempting to hit Lam, so Lam drove to a neighbor’s
house and asked her to call 911. Lam was under the
impression that the police would make Sonny take his
medication, and Lam testified that he had been advised
by “an agency specialized in mental health” that the
police could take Sonny to a “specialized hospital for
treatment.”

1

The evidence at trial regarding the events described below
conflicted on certain points. Consistent with our obligation to draw
inferences in Lam’s favor, we provide the version of events most
favorable to Lam when recounting conflicting testimony, unless
otherwise indicated.

App. 7
Officer Jairo Acosta was dispatched to investigate
the call as a possible assault, and he met Lam outside
Sonny’s home. Lam told Acosta that Sonny had “lost
his mind” before the two entered the home through the
garage.2 When Lam and Acosta arrived outside Sonny’s
bedroom, Acosta pushed open the bedroom door and
found Sonny sitting at his desk, unarmed and wearing
nothing but basketball shorts. Sonny immediately
started yelling at Acosta and Lam to get out of the
room. Acosta approached Sonny and grabbed Sonny’s
shoulder to get Sonny to leave the room with him. Lam
testified that when Sonny refused to leave his room,
Acosta challenged Sonny, saying, “Beat me, beat me,”
as Sonny yelled, “No, no, no” and made punching
motions through the air. Sonny then stood up and
began pushing Acosta out of his room, forcing both Lam
and Acosta into the main hallway. Lam retreated down
the hallway into the turning point so that he was
behind Acosta and could no longer see Sonny. Acosta
radioed dispatch with a non-urgent request for
back-up. Sonny did not have any weapon in his hands
at this point.
According to Acosta, Sonny then went to a desk
drawer and grabbed what Acosta thought was a knife,
but turned out to be a pair of scissors. Acosta testified
that he then pulled out his gun and took a step back as
2

The layout of Sonny’s home is relevant to putting the events at
issue in context. The home was set up with an entrance through
the garage, which opened into a laundry room. The laundry room
opened into the main hallway, with Sonny’s room immediately on
the right. The main hallway stretched 16 feet before it turned at
a 90-degree angle to the left, then continued into the kitchen and
living room area.

App. 8
Sonny approached him with the scissors, and that he
told Sonny to drop the scissors. Lam testified he did not
hear Acosta give a warning. Sonny stabbed Acosta in
the left forearm with the scissors, and Acosta then shot
Sonny in the right calf, with the bullet passing through
his leg.
After Acosta fired the first shot, Lam ran to Acosta
and asked him why he shot Sonny, and Acosta replied
that Sonny had a knife. Lam testified that he could not
see any weapon, but Acosta yelled, “Go back, go back.”
Acosta retreated down the hall, and took the time to
clear his handgun, which had jammed, using a “tap,
rack[,] and roll” technique.
Acosta continued backing down the hallway so that
Lam was behind him. When Acosta was positioned
near the turn of the hallway, he fired the second shot
at Sonny, who was still in the main hallway. It is
undisputed that Acosta did not provide a warning to
Sonny before firing the second shot. The second shot hit
Sonny in the chest at a downward angle, and he fell to
the ground.
Lam rushed to Sonny, who was lying face-up on the
floor, bleeding and screaming. Backup arrived shortly
thereafter, and Sonny was handcuffed before being
placed on a stretcher and taken outside while Lam was
told to wait in the living room. Officer Teresa Provencio
was the first officer to arrive after the shooting,
entering through the garage and walking past Sonny
and down the hallway. She did not see any scissors or
other weapon near Sonny, nor did Acosta warn her that
Sonny had been armed or that he had stabbed Acosta
with the scissors. Officer Christopher Borchardt was

App. 9
the next to arrive on-scene, and Acosta reported to
Borchardt that Sonny had stabbed him with scissors,
and Acosta revealed a small puncture wound on his
forearm. Borchardt testified that he observed a pair of
scissors under Sonny’s thigh, but the position of the
scissors was never confirmed by photograph because
Borchardt testified that he slid the scissors away from
Sonny and that the scissors were then moved to a
different room. Sonny was taken to the hospital, where
he died during surgery.
B
Lam filed a complaint against both the City of Los
Banos and Acosta, alleging violations of constitutional
rights under 42 U.S.C. § 1983 as well as state law
claims. The district court granted summary judgment
for the City on all claims. However, the district court
concluded that there remained issues of triable facts on
some of Lam’s claims against Acosta, including his
Fourth Amendment excessive use of force claim, his
Fourteenth Amendment loss of familial relationship
claim, his state law negligence and negligent infliction
of emotional distress claims, and the question of
qualified immunity. Among other issues, the court
concluded that disputed material issues of fact existed
as to whether (1) Acosta was aware that Sonny suffered
from mental illness prior to entering Sonny’s home;
(2) Sonny was armed with scissors at any point;
(3) Sonny stabbed Acosta with scissors; (4) Sonny
attempted to take Acosta’s gun; and (5) after being shot
the first time, Sonny continued to pose a threat to
Acosta.

App. 10
Prior to trial, Acosta filed a motion in limine to
exclude evidence of his 2011 post-traumatic stress
disorder (“PTSD”) diagnosis by a Veterans Affairs
(“VA”) psychologist and to exclude expert testimony
related to that diagnosis. At the pretrial conference, the
district court denied Acosta’s motion to exclude all
PTSD evidence and stated, “That’s without prejudice
though, because there is a lot of things that are
involved in PTSD that may or may not be relevant as
we move through. But for right now I’m denying it
without prejudice.” In response to subsequent
comments made by Acosta’s counsel about the
challenge to the expert testimony, the district court
reiterated that the motion in limine to exclude PTSD
evidence had been denied: “[I]t is going to wait. So the
motion has been denied.”
At trial, deposition testimony from Nurse
Practitioner Mary Jimenez and Dr. Joseph Shuman—
VA healthcare providers who personally examined
Acosta in relation to his PTSD symptoms in February
and June of 2011, respectively—was read to the jury.
Jimenez’s testimony reflected that Acosta had
described experiencing difficulty making decisions,
forgetfulness, irritability, poor frustration tolerance,
and that he felt depressed and was easily angered. Dr.
Shuman evaluated Acosta after Jimenez completed her
evaluation, and he diagnosed Acosta with prolonged
PTSD, meaning that Acosta had experienced PTSD
symptoms for a period longer than 90 days. Similar to
Jimenez’s testimony, Dr. Shuman’s testimony reflected
that Acosta reported irritability, “difficulty
concentrating that . . . contributes often to short term
memory problems,” hypervigilance, and an exaggerated

App. 11
startle response. Dr. Shuman’s testimony noted that
Acosta’s PTSD symptom of “feeling as if the traumatic
event was recurring” could potentially be triggered by
certain on-the-job experiences, such as by clearing
houses and drawing his weapon. Acosta’s counsel did
not object to this testimony at trial.
Lam’s expert, Dr. Kris Mohandie, also testified at
trial about how Acosta’s PTSD would have affected his
reactions to stressful situations that he encountered
while on the job. Acosta raised an objection under
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S.
579 (1993), to Dr. Mohandie’s testimony, on the ground
that the testimony lacked foundation because Dr.
Mohandie never personally examined Acosta. Acosta’s
objection was overruled.
At the close of the evidence, Acosta made a motion
for judgment as a matter of law pursuant to Federal
Rule of Civil Procedure 50(a), in which he attempted to
renew his summary judgment motion. The following
exchange between Acosta’s counsel and the district
court took place:
Counsel: So, as far as the Fourth Amendment
claim slash Fourteenth Amendment claim of
excessive force, I would renew our summary
judgment as a 50(a) motion, orally.
*******
District Court: Just so I’m clear, are you making
a Rule 50(a) [motion], or renewing the summary
judgment [motion], 56, or both?

App. 12
Counsel: Because I’m not an expert on my
FRCP, perhaps I should be better at, I was in a
trial where a district court judge renewed the
summary judgment sua sponte based on the last
evidence that was presented just prior to trial
starting.
District Court: Just so we’re clear, I’m not going
to do that.
Counsel: Okay. So it’s a 50(a) motion.
The district court then denied the motion.
The jury returned a verdict in Lam’s favor on his
Fourth Amendment, Fourteenth Amendment, and state
negligence and negligent infliction of emotional distress
claims (apportioning 70% of the fault to Acosta). The
jury awarded Lam $250,000 for Sonny’s pain and
suffering prior to his death, $2,000,000 for Lam’s past
and future loss of Sonny’s love and companionship, and
$500,000 for Lam’s emotional distress, for a total
award of $2.75 million. The jury also made the
following findings in response to special
interrogatories:
(1) Sonny stabbed Acosta with a pair of scissors;
(2) Sonny did not grab Acosta’s gun prior to
Acosta firing the first shot;
(3) Acosta retreated from Sonny after firing the
first shot; and
(4) Sonny did not approach Acosta with scissors
before Acosta fired his gun the second time.

App. 13
After the judgment was entered against him, Acosta
timely filed a Rule 50(b) renewed motion for judgment
as a matter of law or, in the alternative, a Rule 59
motion for a new trial. Acosta asserted that judgment
as a matter of law was warranted on his federal claims
because his use of force was objectively reasonable, he
lacked the requisite purpose to harm required for a
Fourteenth Amendment due process violation, and he
was entitled to qualified immunity. The district court
denied the motion. It concluded that there was
sufficient evidence to support the jury’s award in Lam’s
favor and that Acosta was not entitled to qualified
immunity. On the qualified immunity issue, the district
court stated,
Given [the jury’s special findings], even if the
Court could determine that Officer Acosta was
entitled to qualified immunity regarding the
first gunshot, the jury found with respect to the
second shot that Officer Acosta was retreating
and was no longer being approached with
scissors. There is simply no way given the
factual determinations reached by the jury that
the Court can determine Officer Acosta is
entitled to immunity with regard to the second
gunshot.
Acosta timely appealed, arguing that the district
court erred in denying Acosta’s Rule 50(b) motion
because insufficient evidence supported the jury’s
special finding that Sonny did not approach Acosta
with scissors before Acosta fired the second shot, and
the jury’s finding that Acosta acted with a purpose to
harm unrelated to a legitimate law enforcement

App. 14
objective. Acosta further argued that his use of force
was reasonable and, even if there was a constitutional
violation here, he is entitled to qualified immunity. He
also contends that the district court erred in admitting
the evidence related to his PTSD diagnosis. Aside from
his evidentiary challenge to the PTSD evidence, Acosta
did not appeal the merits of the jury verdict on the
state law claims.
II
The district court properly held that there was
sufficient evidence to sustain the jury’s special verdict
finding that Sonny did not approach Acosta with
scissors prior to the second shot and thus the district
court properly denied Acosta’s Rule 50(b) motion on
that claim.
We review the district court’s denial of Acosta’s Rule
50(b) motion de novo, drawing all reasonable inferences
in Lam’s favor, see Reese v. County of Sacramento, 888
F.3d 1030, 1036 (9th Cir. 2018), and we take special
care not to reweigh the evidence in our consideration,
see Lam v. City of San Jose, 869 F.3d 1077, 1085 (9th
Cir. 2017) (“Our role is not to overturn the verdict
merely because the jury could have reached the
opposite conclusion based on the evidence.”). We may
not make credibility determinations, Lytle v. Household
Mfg., Inc., 494 U.S. 545, 554–55 (1990), and we “must
disregard all evidence favorable to the moving party
that the jury is not required to believe,” Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150–51
(2000). “The test applied is whether the evidence
permits only one reasonable conclusion, and that
conclusion is contrary to the jury’s verdict.” E.E.O.C. v.

App. 15
Go Daddy Software, Inc., 581 F.3d 951, 961 (9th Cir.
2009) (quoting Josephs v. Pac Bell, 443 F.3d 1050, 1062
(9th Cir. 2006)). Drawing all reasonable inferences in
Lam’s favor, we conclude that there was sufficient
evidence to support the jury’s special finding.
Acosta specifically challenges the jury’s fourth
special finding—that Sonny did not approach Acosta
with scissors before Acosta shot him the second time.
We reject Acosta’s argument that this finding is
unsupported by the evidence in the record. The special
interrogatory asked whether “Sonny Lam approach[ed]
Officer Acosta with scissors before Officer Acosta fired
his gun the second time,” to which the jury answered
“NO.” Both parties agree that Sonny “approach[ed]”
Acosta prior to the second shot, but they disagree on
the manner in which Sonny approached Acosta.
After carefully examining the record, we conclude
that the jury did not contravene the weight of the
evidence in making the special finding that Sonny did
not have scissors as he approached Acosta before the
second shot. See Atlantic & Gulf Stevedores, Inc. v.
Ellerman Lines, Ltd., 369 U.S. 355, 364 (1962) (“Where
there is a view of the case that makes the jury’s
answers to special interrogatories consistent, they
must be resolved that way.”).
First, Tan Lam was present for the events in
question as a percipient witness.3 According to Lam,
3

Acosta, citing Gregory v. County of Maui, 523 F.3d 1103 (9th Cir.
2008), contends that the jury should not have credited Lam’s
testimony because he was standing behind Acosta when the
shooting took place. This argument is unavailing. Whereas the

App. 16
when Acosta and Sonny started struggling in the
bedroom, he backed away three to four meters outside
the bedroom. Lam testified that, after he heard the
first shot, he ran to Acosta and asked him why he shot
Sonny. Acosta told him that Sonny had a knife. Lam
then tried to run over to see what happened, but Acosta
told him to go back. Lam was standing behind Acosta
when Acosta fired the second shot, and after that shot
Lam ran to Sonny and saw him lying face up. Crucially,
Lam testified that he saw police “turn[] [Sonny] upside
down, face down, and . . . handcuff[] him”—but that he
did not see a pair of scissors near Sonny. In fact, Lam
did not see a pair of scissors until after police had left
the home.
Second, consistent with Lam’s testimony that he did
not observe a pair of scissors near Sonny after the
second shot, Officer Provencio—who was the first
officer to arrive on the scene and walked right past
Sonny—testified that she did not observe a pair of
scissors near Sonny. The testimony from Lam and
Provencio is sufficient to support the jury’s finding that
Sonny did not have scissors prior to the second shot.
Third, Acosta gave inconsistent accounts of whether
Sonny advanced on him with the scissors, and the jury
was entitled to take those inconsistencies into
consideration. At trial, Acosta gave two different
versions of which hand Sonny used to hold the scissors.

purported witnesses in Gregory were not even inside the building
in which the deadly force incident occurred, see id. at 1106 n.3,
Lam was within several yards of Acosta and Sonny during the
shooting.

App. 17
His officer-involved-shooting interview, conducted just
a few hours after the event, contradicted his trial
testimony. In addition, he told the interviewers that
Sonny had dropped the scissors after the first shot. At
trial, he testified that Sonny had never dropped the
scissors. He told interviewers that Sonny had fallen to
the ground after the first shot, but at trial he claimed
Sonny did not fall after the first shot. At trial, he had
difficulty remembering what he said to arriving officers
or the sequence of events. In short, Acosta’s testimony
was significantly impeached by his prior inconsistent
statements and his inconsistent testimony at trial.
In sum, we cannot say that, in this case, “the
evidence permits only one reasonable conclusion, and
that conclusion is contrary to the jury’s verdict.” Go
Daddy Software, Inc., 581 F.3d at 961 (quoting
Josephs, 443 F.3d at 1062). Viewing the evidence in the
light most favorable to Lam, which we must do at this
juncture, the evidence sufficiently supports the jury’s
special findings. We are not permitted to make
credibility determinations in reviewing a denial of a
Rule 50(b) evidence sufficiency motion. Lytle, 494 U.S.
at 554–55. And, indeed, we “must disregard all
evidence favorable to the moving party that the jury is
not required to believe.” Reeves, 530 U.S. at 150–51.
Applying these standards, we conclude that the district
court did not err in denying Acosta’s Rule 50(b)
sufficiency of the evidence motion.
III
The district court did not err in denying Acosta’s
Rule 50(b) motion challenging the jury’s verdict on
Lam’s Fourth Amendment claim. Acosta argues that

App. 18
Lam failed to establish a FourthAmendment violation
because Acosta’s use of force was objectively reasonable
and that, even if there were a constitutional violation,
he is entitled to qualified immunity.
A
The district court properly rejected Acosta’s
argument that the jury improperly found that Acosta’s
use of deadly force was unreasonable. We evaluate
Fourth Amendment excessive use of force claims for
objective reasonableness, asking “whether the officers’
actions are ‘objectively reasonable’ in light of the facts
and circumstances confronting them.” Graham v.
Connor, 490 U.S. 386, 397 (1989). “[B]ecause questions
of reasonableness are not well-suited to precise legal
determination, the propriety of a particular use of force
is generally an issue for the jury.” Barnard v.
Theobald, 721 F.3d 1069, 1076 (9th Cir. 2013) (quoting
Cameron v. Craig, 713 F.3d 1012, 1021 (9th Cir. 2013)
(quoting Chew v. Gates, 27 F.3d 1432, 1440 (9th Cir.
1994))). Given the jury’s special findings that Acosta
had retreated from Sonny after firing the first shot,
and that Sonny did not have scissors as he approached
Acosta before the second shot, the district court did not
err in concluding that Sonny’s constitutional rights
were violated as a result of Acosta’s objectively
unreasonable use of deadly force.
B
The district court also did not err in denying
Acosta’s Rule 50(b) motion for judgment as a matter of
law based on his assertion of qualified immunity, a

App. 19
decision we review de novo.4 Reese, 888 F.3d at 1036.
“Qualified immunity is an affirmative defense that the
government has the burden of pleading and proving.”
Frudden v. Pilling, 877 F.3d 821, 831 (9th Cir. 2017)
(citing Houghton v. South, 965 F.2d 1532, 1536 (9th
Cir. 1992)). In evaluating a renewed qualified
immunity motion under Rule 50(b) after a jury trial, we
analyze the motion based on the facts established at
trial, see Reese, 888 F.3d at 1036, viewing the evidence
in the light most favorable to the nonmoving party, and
drawing all reasonable inferences in favor of the
nonmoving party, see Barnard, 721 F.3d at 1075.
“Qualified immunity balances two important
interests—the need to hold public officials accountable
when they exercise power irresponsibly and the need to
shield officials from harassment, distraction, and
liability when they perform their duties reasonably.”
Pearson v. Callahan, 555 U.S. 223, 231 (2009). We ask
two questions when determining whether an officer is
entitled to qualified immunity: “(1) whether there has
been a violation of a constitutional right; and
(2) whether that right was clearly established at the
time of the officer’s alleged misconduct.” Estate of Lopez
ex rel. Lopez v. Gelhaus, 871 F.3d 998, 1005 (9th Cir.
2017) (quoting Lal v. California, 746 F.3d 1112, 1116
(9th Cir. 2014)).

4

We reject Lam’s contention that Acosta waived the issue of
qualified immunity by failing to raise it in his Rule 50(a) motion.
The factual arguments Acosta made in support of his Rule 50(a)
motion are the same arguments underlying Acosta’s asserted claim
to qualified immunity.

App. 20
1
In considering whether a constitutional violation
occurred, our analysis includes three steps: First, we
consider the type and amount of force inflicted to
establish the severity of the intrusion on the
individual’s Fourth Amendment rights; second, we
consider the government’s interest in the use of that
force; and third, we weigh the “gravity of the intrusion
on the individual against the government’s need for
that intrusion.” See Glenn v. Washington Cnty., 673
F.3d 864, 871 (9th Cir. 2011) (citation omitted).
a
As to the type and amount of force inflicted, Acosta
employed deadly force when he shot Sonny. See Bryan
v. MacPherson, 630 F.3d 805, 825 n.6 (9th Cir. 2010)
(“‘Lethal force’ is force that creates a substantial risk of
death or serious bodily injury.”) (citing Smith v. City of
Hemet, 394 F.3d 689, 705–07 (9th Cir. 2005) (en banc)).
The Supreme Court has recognized that “[t]he
intrusiveness of a seizure by means of deadly force is
unmatched.” Tennessee v. Garner, 471 U.S. 1, 9 (1985).
In short, the use of deadly force against Sonny was the
greatest degree of force possible, and therefore the
most severe intrusion on his Fourth Amendment
rights.
b
We next consider the government’s interest in the
amount of force used, and we must “examine the
totality of the circumstances and consider ‘whatever
specific factors may be appropriate in a particular
case.’” Bryan, 630 F.3d at 826 (quoting Franklin v.

App. 21
Foxworth, 31 F.3d 873, 876 (9th Cir. 1994)). When
evaluating the government’s interest, the most
important factor is whether the person posed an
immediate threat to the safety of the officer or another.
See id. (explaining that other, less important factors
that we consider are “the severity of the crime at issue”
and whether the person “is actively resisting arrest or
attempting to evade arrest by flight” (quoting Graham,
490 U.S. at 396)). “A desire to resolve quickly a
potentially dangerous situation is not the type of
governmental interest that, standing alone, justifies
the use of force that may cause serious injury.” Id.
(quoting Deorle v. Rutherford, 272 F.3d 1272, 1281 (9th
Cir. 2001)).
Here, objective evidence supported the conclusion
that Sonny was not a threat to Acosta between the first
and second shot. It is undisputed (and the jury so
found) that Acosta backed down the hallway after the
first shot. Additionally, Acosta not only had time to
speak to Lam, but also had time to clear his jammed
handgun using a “tap, rack[,] and roll” technique.
Further, there was testimony about the bullet
trajectory that suggested that Sonny was not fully
upright when he was shot the second time. Finally, the
jury found that, in the moments before the second shot,
Sonny was not approaching Acosta with scissors.
Because the weight of the evidence indicates that
Sonny did not pose an immediate threat to Acosta or
anyone else between the first and the second shot, this
factor favors Lam. Cf. Garner, 471 U.S. at 11 (“Where
the suspect poses no immediate threat to the officer
and no threat to others, the harm resulting from failing

App. 22
to apprehend him does not justify the use of deadly
force to do so.”).
Hopkins v. Andaya, 958 F.2d 881 (9th Cir. 1992)
(per curiam), overruled on other grounds by Saucier v.
Katz, 533 U.S. 194 (2001), involved facts analogous to
those here. Hopkins compels us to conclude that Sonny
did not pose an immediate threat to Acosta or Lam
between the first and second shot. In Hopkins,
according to the officer, the decedent grabbed the
officer’s baton and “us[ed] it to hit the officer ten or
twenty times over his head, back, shoulders and arms.”
Id. at 886.5 The officer shot the decedent “six times at
a range of three to four feet,” injuring but not killing
the decedent. Id. at 883.6 The officer moved away from
the decedent after firing that round of shots, and the
decedent “followed at a brisk pace,” though he no
longer had the baton in his hands. Id. at 887. The
officer “yelled at [the decedent] to stop and leave him
alone,” but apparently the decedent continued to
advance. Id. The officer then shot the decedent four
times, id., and the decedent died after the second round
of shots, id. at 884.
We held, based on this version of events, that only
the first use of deadly force could be justified because

5

Medical evidence undercut the officer’s story, indicating that the
officer “was hit only once or twice with the baton.” Hopkins, 958
F.2d at 886. Additionally, an eyewitness contradicted the officer’s
version of events. Id. at 884.
6

The officer alleged that he warned the decedent before opening
fire, but his version of events was contradicted by a percipient
eyewitness. Hopkins, 958 F.2d at 883–84.

App. 23
the decedent was “allegedly beating” the officer. Id. at
887. We could not “say as a matter of law that [the
officer] acted reasonably” when he fired the second
round of shots because “it was far from clear that [the
officer] reasonably feared for his life.” Id. At the time
the officer fired those shots, the decedent “had been
wounded and was unarmed,” and the officer “had
already called for help; he needed only to delay [the
decedent] for a short period of time”—which he could
have done by evading the decedent or “attempt[ing] to
subdue him with his fists, his feet, his baton or the butt
of his gun.” Id.
Here, as in Hopkins, though Acosta’s first
shot—fired after Sonny had stabbed him with
scissors—was likely an objectively reasonable use of
force, Acosta’s second shot was not an objectively
reasonable use of force. When Acosta fired the second
shot, Sonny no longer posed an immediate threat:
Sonny was injured and was not approaching Acosta
with scissors, and Acosta was retreating from Sonny.
Acosta could have retreated further, even out of the
house, and waited for backup. Indeed, he had already
radioed for backup, which was on the way.
We may also consider “the availability of less
intrusive alternatives to the force employed, [and]
whether proper warnings were given” before the officer
used deadly force. Glenn, 673 F.3d at 872. Less
intrusive alternatives to the deadly force were
available to Acosta. He had a baton and pepper spray
on his person, and he could have held his fire “unless
and until [Sonny] showed signs of danger.” See Zion v.
County of Orange, 874 F.3d 1072, 1076 (9th Cir. 2017).

App. 24
“To endorse [Acosta’s] chosen course of action”—firing
a fatal shot when Sonny no longer posed an immediate
threat—“would be to say that a police officer may
reasonably fire repeatedly upon an unarmed, wounded
civilian even when alternative courses of action are open
to him.” Hopkins, 958 F.2d at 887.
Finally, though the parties dispute whether Acosta
warned Sonny before the first shot, it is undisputed
that he did not warn Sonny before firing the second
shot. Between the first and the second shot, Acosta was
able to tell Lam that Sonny “had a knife,” direct Lam
to “go back,” retreat down the hallway, and clear his
gun. Thus, “there was ‘ample time to give that order or
warning and no reason whatsoever not to do so.’”
Bryan, 630 F.3d at 831 (quoting Deorle, 272 F.3d at
1284).
c
In short, Sonny had an undeniable Fourth
Amendment interest in his own life, Garner, 471 U.S.
at 11, and Acosta’s use of deadly force in firing the
second shot was objectively unreasonable in light of the
facts that Sonny did not pose an immediate threat,
alternative methods of force were available to Acosta,
and Acosta did not warn Sonny before firing the second
shot. Accordingly, the district court properly concluded
that Acosta violated Sonny’s Fourth Amendment right.
2
Moving to the second prong of our qualified
immunity analysis, we recognize that even where an
officer violates a constitutional right, the officer will be
granted qualified immunity if the use of force was

App. 25
rooted in a reasonable belief that, under the law at the
time of the incident, the use of force was lawful. See
Bryan, 630 F.3d at 832. The district court did not err in
concluding that Acosta was not entitled to qualified
immunity regarding the second shot he fired because
the law was clearly established that an officer may not
shoot a previously armed person who no longer posed
a threat.
a
We analyze the clearly-established prong of our
qualified immunity inquiry by “considering the jury’s
factual findings in the special interrogatories and
construing the evidence regarding the remaining
factual disputes most favorably to” Lam. Jones v.
Treubig, 963 F.3d 214, 228 (2d Cir. 2020). Therefore,
we must reject Acosta’s argument that one piece of
physical evidence—namely, the trail of bloody
footprints—compels the conclusion that Acosta is
entitled to qualified immunity. Although Acosta
testified that Sonny was “walking towards” him, the
jury was entitled to “disbelieve” his “self-serving
testimony,” see Baker v. Delta Air Lines, Inc., 6 F.3d
632, 645 (9th Cir. 1993) (quoting Uffelman v. Lone Star
Steel Co., 863 F.2d 404, 409 (5th Cir. 1989)),
particularly because other parts of Acosta’s testimony
were inconsistent or weak, and evidence in the record
supports the jury’s finding. See generally Smith, 394
F.3d at 701 (explaining that in excessive use of force
cases, the jury’s role in making factual and credibility
determinations is exceptionally important).
It is undisputed that the first shot hit and went
through Sonny’s leg. The jury could have reasonably

App. 26
inferred from this fact that Sonny stumbled down the
hallway after being injured by the first shot Acosta
fired. Indeed, the bullet trajectory evidence showing
that the second shot entered Sonny’s body at a “pretty
steep,” “downward trajectory” was consistent with
Sonny not having been upright when the fatal shot was
fired.
In sum, the trial evidence, construed in the light
most favorable to Lam, does not compel the conclusion
that Acosta was entitled to qualified immunity.
b
As to our consideration of applicable law, it has long
been clearly established that an officer could not use
deadly force on an unarmed, nonthreatening suspect
and any belief to the contrary was not reasonable. As
the Supreme Court plainly put it in Garner: “A police
officer may not seize an unarmed, nondangerous
suspect by shooting him dead.” 471 U.S. at 11–12.
Beyond that level of generality, as forceful as it is, we
must decide whether, at the time this shooting
occurred, it was apparently unlawful for a police officer
to shoot a mentally ill man in deteriorating health in
his own home, who—though previously armed—was
incapacitated and no longer posed a threat. We
conclude that it was.
Hopkins is instructive and clearly established that
Acosta’s second shot violated the Fourth Amendment
at the time of the incident. Here, as in Hopkins, an
officer’s initial shot was in response to an armed person
who had injured him. See 958 F.2d at 886. Further,
when the person—by then wounded and unarmed—

App. 27
approached the officer, in both instances the officer
shot again, despite being in no imminent danger. Id. at
887. Although the officer in Hopkins apparently had a
minute or two to regroup between the first and second
round of shots, see id. at 883, while the events here
unfolded more rapidly, such a distinction is not
ultimately meaningful because Acosta nonetheless had
time to reevaluate whether Sonny posed an immediate,
significant threat between the first and second shots.
Hopkins should have made it clear to Acosta that it
was unreasonable to shoot Sonny a second time while
he stumbled down the hallway toward Acosta—without
any weapon, without making any threatening gesture,
and after being severely wounded by the first shot.
Thus, Hopkins put Acosta on notice that firing the
second shot was unlawful.
Because it was clearly established that shooting a
non-threatening suspect would violate the suspect’s
constitutional rights, Acosta failed to meet his burden
of showing that he is entitled to qualified immunity.
Our conclusion is further supported by two other lines
of precedent.
First, though Acosta makes much of the fact that
Sonny was armed with scissors immediately prior to
the first shot, our precedent has long made clear that
the suspect’s possession of a weapon at some point in
the incident does not provide an officer with carte
blanche to use deadly force. Take, for example, our
decision in Deorle. In Deorle, plaintiff Deorle began
behaving erratically so his wife placed a 911 call
because he had “lost control of himself” and she was
“[i]n search of someone to help her with her distressed

App. 28
husband.” 272 F.3d at 1276. When police arrived,
Deorle refused to let them in the home without a
warrant and exited the home while hurling verbal
abuse at the officers. Id. He also brandished a hatchet,
carried an unloaded crossbow, and screamed at an
officer that he would “kick his ass.” Id. at 1276–77. One
officer ordered Deorle to put down the bow, and he did
so, but then he began walking toward the officer, who
fired a “beanbag round” at Deorle’s face without
warning, seriously injuring him. Id. at 1277–78.
We reversed and remanded the district court’s grant
of summary judgment on qualified immunity grounds
for the officer’s excessive use of force. We explained
that, despite the plaintiff’s having previously armed
himself and verbally threatening the officer, the
plaintiff “present[ed] no objectively reasonable threat”
at the time the officer deployed the force, and “[e]very
police officer should know that it is objectively
unreasonable to shoot” in such a situation. See id. at
1285; see also, e.g., George v. Morris, 736 F.3d 829,
838–39 (9th Cir. 2013) (reviewing our caselaw, which
has made clear “that the fact that the ‘suspect was
armed with a deadly weapon’ does not render the
officers’ response per se reasonable under the Fourth
Amendment,” and holding that summary judgment for
the officers was inappropriate given evidence that the
suspect was pointing a gun away from the officers
when they shot him) (quoting Glenn, 673 F.3d at 872));
Robinson v. Solano Cnty., 278 F.3d 1007, 1014 (9th Cir.
2002) (en banc) (concluding that “[t]he only
circumstance[] in this case favoring the use of force was
the fact that plaintiff had earlier been armed” and that
“[plaintiff’s] earlier use of a weapon, that he clearly no

App. 29
longer carried, is insufficient to justify the intrusion on
[his] personal security”).
Second, precedent forecloses Acosta’s argument that
he is entitled to qualified immunity because “Sonny
had already stabbed Acosta with scissors” at the time
of the second shot. At the time of the incident, caselaw
had made clear that an officer violates the Fourth
Amendment by shooting a person who had previously
injured someone but no longer posed an immediate
threat.
The reasoning from Zion is persuasive. See 874 F.3d
at 1075–76. The shooting in Zion occurred 22 days after
the shooting at issue here, and Zion was decided after
the shooting at issue here. Nonetheless, we may still
look to Zion to help us discern whether Acosta’s use of
force violated clearly established law. When a case
involves analogous conduct that occurred around the
same time as the underlying incident in the matter
before us, and the case holds that the conduct at issue
there violated clearly established law, then that case
may indicate that the claim for qualified immunity
presently before us should likewise be rejected. See
Curnow ex rel. Curnow v. Ridgecrest Police, 952 F.2d
321, 325 & n.*** (9th Cir. 1991) (applying a laterdecided case that involved an event occurring in the
same time period as the incident in question). Thus,
although Zion had not been decided before this
shooting, the events underlying our decision in Zion
occurred in the same timeframe as the events at issue
here, and so it is relevant as to what a reasonable
officer would have known was unlawful at the time
Sonny was shot. See id. at 325.

App. 30
In Zion, police were called after the decedent “bit
his mother and cut her and his roommate with a
kitchen knife.” 874 F.3d at 1075. When an officer
responded to the scene, the decedent “ran at him and
stabbed him in the arms.” Id. Subsequently, another
officer shot nine rounds at the decedent in quick
succession, after which the decedent fell to the ground.
Id. The officer then approached the prone decedent and
fired nine more shots at him. Id.
Reversing and remanding the district court’s grant
of summary judgment in favor of the defendants, we
held that if a jury were to find that the decedent “no
longer posed an immediate threat” between the first
round of shots and the second round of shots, id. at
1076, then the officer would have been “on notice that
[firing the second round of shots] would be clearly
unlawful,” id. (quoting Saucier, 533 U.S. at 202). We
may look to the same law on which we relied in Zion to
reach the conclusion that an officer violates a clearly
established right when he shoots an incapacitated
suspect who no longer poses a threat, even if the
suspect previously had a weapon and stabbed an
officer. See id. at 1075; see also id. at 1076 (“We have
cases holding that the use of deadly force against a
non-threatening suspect is unreasonable.” (citing
Garner, 471 U.S. at 11–12; Harris v. Roderick, 126 F.3d
1189, 1201 (9th Cir. 1997))).
Not only is Zion’s analysis of the law persuasive, it
is in accord with the decisions of our sister circuits. See,
e.g., Estate of Jones by Jones v. City of Martinsburg,
961 F.3d 661, 668–70 (4th Cir. 2020) (officers not
entitled to qualified immunity in 2013 incident where

App. 31
they fatally shot suspect after he ceased to pose a
threat, when he had previously hit and stabbed an
officer); Estate of Smart by Smart v. City of Wichita,
951 F.3d 1161, 1175 (10th Cir. 2020) (officer not
entitled to qualified immunity in a 2012 incident when
he fatally shot a person whom police suspected had
been an active shooter after suspect no longer posed a
threat); Harris v. Pittman, 927 F.3d 266, 281 (4th Cir.
2019) (qualified immunity denied as to officer’s second
shot in 2012 incident after the officer had already
wounded and disabled the suspect with the initial
shot); Fancher v. Barrientos, 723 F.3d 1191, 1201 (10th
Cir. 2013) (officer not entitled to qualified immunity
when he fired fatal shots after suspect was no longer a
danger following the suspect’s initial assault on the
officer); Meyers v. Baltimore Cnty., 713 F.3d 723, 735
(4th Cir. 2013) (qualified immunity denied when
officers continued to tase suspect who had been
involved in a family dispute after he was no longer a
threat); Brockington v. Boykins, 637 F.3d 503, 507 (4th
Cir. 2011) (qualified immunity denied as to subsequent
shots fired at a wounded suspect).
In sum, the district court properly denied the Rule
50(b) motion on qualified immunity as to Lam’s Fourth
Amendment claim. The law was clearly established at
the time of the shooting that an officer could not
constitutionally kill a person who did not pose an
immediate threat. The law was also clearly established
at the time of the incident that firing a second shot at
a person who had previously been aggressive, but posed
no threat to the officer at the time of the second shot,
would violate the victim’s rights. The facts as found by
the jury adequately supported the conclusion that a

App. 32
Fourth Amendment violation had occurred. The district
court was correct in denying qualified immunity as a
matter of law.
C
In short, the district court did not err in denying
Acosta’s Rule 50(b) motion challenging the jury’s
verdict on Lam’s Fourth Amendment claim. The
district court properly concluded that sufficient
evidence supported the jury’s conclusion that Acosta’s
use of deadly force was unreasonable, and the district
court properly held that, given the jury findings, Acosta
was not entitled to qualified immunity.
IV
The district court erred in denying Acosta’s Rule
50(b) motion on Lam’s Fourteenth Amendment due
process claim because there was insufficient evidence
in the record to support a constitutional violation.
As a parent, Lam had “a Fourteenth Amendment
liberty interest in the companionship and society of
[Sonny].” Wilkinson v. Torres, 610 F.3d 546, 554 (9th
Cir. 2010). Therefore, the question is whether
substantial evidence supports the jury’s verdict that
Acosta’s conduct in shooting Sonny and depriving Lam
of his Fourteenth Amendment interest “shocks the
conscience.” Id. This standard differs from a Fourth
Amendment inquiry. Thus, there may be a Fourth
Amendment violation because of an unreasonable use
of force, but the circumstances may not rise to the level
of a Fourteenth Amendment “shock the conscience”
violation. Zion, 874 F.3d at 1077.

App. 33
Our inquiry begins by asking “whether the
circumstances are such that actual deliberation” by
Acosta before his use of force was “practical.”
Wilkinson, 610 F.3d at 554 (quoting Porter v. Osborn,
546 F.3d 1131, 1137 (9th Cir. 2008)). If actual
deliberation was not practical, we cannot conclude that
Acosta violated the Fourteenth Amendment unless
substantial evidence indicates that he acted “with a
purpose to harm unrelated to legitimate law
enforcement objectives.” Id. (emphasis added).
Here, precedent compels us to conclude that actual
deliberation sufficient for Acosta to develop a purpose
to harm unrelated to a legitimate law enforcement
objective was not practical before Acosta shot Sonny
the second time. See, e.g., S.R. Nehad v. Browder, 929
F.3d 1125, 1139 (9th Cir. 2019) (applying the purpose
to harm standard where there was “some evidence that
a suspect posed no danger” but where there was “no
evidence that [the officer] fired on [the suspect] for any
other purpose than self-defense, notwithstanding the
evidence that the use of force was unreasonable”); Zion,
874 F.3d at 1077 (applying the purpose to harm
standard when “the two volleys [of shots] came in rapid
succession”); Wilkinson, 610 F.3d at 554 (explaining
that the purpose to harm standard applies where a
situation evolves quickly and forces an officer to
respond quickly). Even where an officer has the time to
“consider what he was doing before he acted,” Porter,
546 F.3d at 1139—as Acosta did here—we must apply
the heightened purpose to harm standard because
“‘deliberation’ for purposes of the shocks the conscience
test is not so literal a concept,” id.

App. 34
“The purpose to harm standard is a subjective
standard of culpability” and an officer “violates the due
process clause if he used force with only an illegitimate
purpose in mind.” A.D. v. Cal. Highway Patrol, 712
F.3d 446, 453 (9th Cir. 2013) (citing Porter, 546 F.3d at
1140). An officer acts with a legitimate purpose when
he acts with the objectives of arrest, self-defense, or the
protection of the public in mind, see id. at 454, while he
acts with an illegitimate purpose if he acts with the
objectives to “bully a suspect or get even,” Wilkinson,
610 F.3d at 554 (internal quotation marks and citation
omitted).
There are insufficient facts in the record to show
that Acosta acted with a purpose to harm unrelated to
a legitimate law enforcement objective.7 The jury found
that Sonny had stabbed Acosta with scissors prior to
the first shot, so Acosta acted with the legitimate
purpose of self-defense in firing the first shot. On the
second shot, Acosta told Lam that Sonny “had a knife”
and yelled for Lam to get back, evidencing that he still
7

Though the evidence does not show that Acosta acted with a
purpose to harm unrelated to a legitimate law enforcement
objective, that does not mean that his use of force was objectively
reasonable. The “purpose to harm” inquiry is independent of the
reasonableness inquiry, and our conclusion on this issue does not
foreclose our conclusion above. See, e.g., S.R. Nehad, 929 F.3d at
1139 (“Although objective reasonableness is one means of
assessing whether conduct meets the shocks the conscience
standard, an unreasonable use of force does not necessarily
constitute a Fourteenth Amendment substantive due process
violation.”) (internal quotation marks, alteration, and citation
omitted); Zion, 874 F.3d at 1077 (“Whether excessive or not, the
shootings served the legitimate purpose of stopping a dangerous
suspect.”).

App. 35
perceived Sonny as a threat. Although there was a
short time interval between the shootings, there was no
evidence that Acosta acted with the sort of malicious or
vengeful intent required to satisfy the heightened
purpose to harm standard. See Porter, 546 F.3d at
1141; see also Zion, 874 F.3d at 1075–77 (holding that
there was no Fourteenth Amendment violation when
an officer fired a second round of shots at an individual
who had already been shot “nine times at relatively
close range,” had already “dropped to the ground,” and
was “making no threatening gestures”). Because the
record is devoid of this evidence and the jury found only
that Acosta acted “with a purpose to harm,” and not a
purpose to harm unrelated to a legitimate law
enforcement objective, Lam failed to show that Acosta
committed a Fourteenth Amendment violation.
Therefore, we reverse the jury’s verdict for Lam on the
Fourteenth Amendment claim and remand to the
district court for further proceedings.8

8

It is not clear that reversal on the Fourteenth Amendment claim
requires reducing the jury’s award of damages. “Sometimes, a
jury’s verdict may stand on a legally viable theory even if a legally
defective theory also was presented.” Webb v. Sloan, 330 F.3d
1158, 1166 (9th Cir. 2003). The jury here awarded Lam $2,000,000
in “damages for [the] past and future loss of Decedent Sonny Lam’s
love, companionship, comfort, care, assistance, protection,
affection, society, and moral support.” And separately from Lam’s
Fourteenth Amendment claim, his state law negligence claim
alleged that he had “sustained pecuniary loss resulting from the
loss of comfort, society, attention, services, and support of his son.”
We leave it to the district court to determine on remand whether
the $2,000,000 portion of the jury award can remain in full in light
of Lam’s state law negligence claim.

App. 36
V
Finally, Acosta challenges the district court’s
admission of evidence that he had experienced PTSD.
Specifically, Acosta argues that his PTSD diagnosis
was irrelevant because it was more than two years old
at the time of the incident and that any probative value
of the diagnosis was substantially outweighed by its
potential to unfairly prejudice the jury. Acosta also
argues that the expert testimony regarding his
diagnosis amounted to improper character evidence.
As a general rule, we review the district court’s
evidentiary decisions under the deferential abuse of
discretion standard, and we will not reverse “unless the
ruling is manifestly erroneous.” Gen. Elec. Co. v.
Joiner, 522 U.S. 136, 141–42 (1997) (quoting Spring
Co. v. Edgar, 99 U.S. 645, 658 (1879)). Here, in
addition to our general deference to the trial court’s
evidentiary decisions, Acosta faces a much higher
hurdle because he failed to preserve his objection to the
evidence for appeal. He raised the matter in a pre-trial
motion in limine, which the district court denied
without prejudice to renewal at trial. However, Acosta
did not renew his objection to the PTSD evidence at
trial. Additionally, though Acosta objected to the expert
testimony at trial, his primary objection was that the
requirements for admitting expert testimony under
Daubert were not satisfied, and he did not raise the
improper character evidence objection he now attempts
to raise on appeal.
A party may preserve an objection for appeal by
raising the objection solely in a motion in limine “where
the substance of the objection has been thoroughly

App. 37
explored during the hearing on the motion in limine,
and the trial court’s ruling permitting introduction of
evidence was explicit and definitive.” Palmerin v. City
of Riverside, 794 F.2d 1409, 1413 (9th Cir. 1986). If,
however, there is an indication that the objection
“might be subject to reconsideration,” or if the disputed
evidence is introduced in an unforeseen way at trial
that casts doubt on the applicability of the court’s in
limine ruling, then we do not treat the district court’s
in limine ruling as definitive, and the party must
renew the objection to preserve it for appeal. See id.;
see also Jerden v. Amstutz, 430 F.3d 1231, 1236 (9th
Cir. 2005) (“The requirement of timely and specific
objections ‘serves to ensure that the “nature of the
error [is] called to the attention of the judge, so as to
alert him [or her] to the proper course of action and
enable opposing counsel to take corrective measures.”’”
(quoting United States v. Gomez-Norena, 908 F.2d 497,
500 (9th Cir. 1990) (quoting Advisory Committee’s Note
to Rule 103(a), 56 F.R.D. 183, 195 (1972)) (first
alteration in original))).
Acosta concedes he did not object to the PTSD
evidence at trial, which he needed to do in order to
preserve the objection given the district court’s
language that it denied the motion in limine “without
prejudice” because there were “a lot of things that are
involved in PTSD that may or may not be relevant.”
The district court’s explanation and denial without
prejudice put Acosta on notice that the ruling was
“subject to reconsideration,” so the ruling was not
definitive. See Palmerin, 794 F.2d at 1413.

App. 38
Acosta was presented with numerous opportunities
to object. References to the PTSD diagnosis were made
in voir dire, the opening statement, the testimony of
VA Nurse Practitioner Mary Jimenez, the testimony of
expert clinical psychologist Dr. Kris Mohandie, the
testimony of treating VA Clinical Psychologist Dr.
Joseph Shuman, and in Acosta’s own testimony. Far
from objecting, Acosta’s attorney made multiple
references to the PTSD evidence during his opening
and closing statements and conducted vigorous crossexamination about it. He also did not object to Lam’s
counsel’s closing argument discussing the issue, nor
does he claim on appeal that the argument was unfair
or constituted misconduct.9
“By failing to object to evidence at trial and request
a ruling on such an objection, a party waives the right
to raise admissibility issues on appeal.” Marbled
Murrelet v. Babbitt, 83 F.3d 1060, 1066 (9th Cir. 1996).
Thus, because Acosta did not properly renew his
objection to the admission of the PTSD evidence at
trial, he has waived his right to appeal the district
court’s evidentiary rulings.

9

We are not persuaded by Acosta’s argument that any objection at
trial to the PTSD evidence would have been futile because the
PTSD evidence was “the very first piece of evidence presented to
the jury” and so there were no new “facts” that could have caused
the district court to reconsider its in limine ruling. This argument
misunderstands the district court’s language in ruling on the
motion in limine; if anything, the district court’s language
suggested that in the absence of additional facts, it was inclined to
exclude the evidence, as Acosta had urged it to do, had he made a
contemporaneous objection at trial.

App. 39
Nonetheless, we may review the evidentiary rulings
for plain error. See Gomez-Norena, 908 F.2d at 500;
Fed. R. Evid. 103(e). Plain error requires an error that
is plain or obvious and that it is so prejudicial that it
affects the party’s substantial rights such that review
is necessary to prevent a miscarriage of justice. Draper
v. Rosario, 836 F.3d 1072, 1085 (9th Cir. 2016). An
error creates a miscarriage of justice if it “seriously
impaired the fairness, integrity, or public reputation of
judicial proceedings.” C.B. v. City of Sonora, 769 F.3d
1005, 1019 (9th Cir. 2014) (en banc) (quoting DiazFonseca v. Puerto Rico, 451 F.3d 13, 36 (1st Cir. 2006)).
Plain error is not only a high standard to meet in nonevidentiary challenges, but poses an even higher
burden in evidentiary appeals. As a result, “[a]ppellate
decisions reversing a judgment in a civil case for plain
error in applying Rules of Evidence are very rare.” 1 C.
Mueller & L. Kirkpatrick, Federal Evidence § 1:22 (4th
ed. 2013).
Under Federal Rules of Evidence 401 and 402,
relevant admissible evidence includes evidence having
“any tendency to make a fact more or less probable” so
long as “the fact is of consequence in determining the
action.” In this case, one of the key questions for the
jury to decide was what weight to afford Acosta’s
testimony regarding what happened—making relevant
whether Acosta testified credibly about the events that
unfolded, and whether his recollection could be
challenged. “[W]here what the officer perceived just
prior to the use of force is in dispute, evidence that may
support one version of events over another is relevant
and admissible.” Boyd v. City & County of San
Francisco, 576 F.3d 938, 944 (9th Cir. 2009) (citing

App. 40
Graham, 490 U.S. at 399 n.12 (factfinder may consider
outside evidence “in assessing the credibility of an
officer’s account of the circumstances that prompted
the use of force”)); see also United States v. Kohring,
637 F.3d 895, 910–11 (9th Cir. 2011) (explaining that
“[e]vidence of a witness’s psychological history” may be
admissible on the issue of credibility if the witness’s
condition “may have affected her ability to perceive or
to recall events or to testify accurately” (quoting United
States v. Sasso, 59 F.3d 341, 347–48 (2d Cir. 1995))).
In this case, much of the PTSD evidence could
reasonably be considered relevant to ascertaining
Acosta’s credibility as the evidence went to his ability
to accurately perceive and recall the incident in
question. For instance, Jimenez testified that Acosta
suffered from “forgetfulness.” Similarly, treating
psychologist Dr. Shuman testified that Acosta had not
completed his course of treatment. Dr. Shuman further
testified that, based on Acosta’s own self reporting,
Acosta’s PTSD diagnosis meant that certain situations
could be triggers for a PTSD episode, and listed
clearing houses and drawing weapons as such
situations. He testified that if such triggering events
occurred, Acosta could experience “intense
psychological distress” and “hypervigilance.” Dr.
Mohandie testified that when trigger situations arose,
a person with PTSD could experience “overreaction,
oversensitivity, impulsive reactions instead of being
able to flexibly assess and decide what to do in a
situation.” Dr. Mohandie also testified that for
individuals with prolonged PTSD, symptoms are likely
to continue without treatment. To the extent this
testimony indicated that Acosta’s PTSD may have

App. 41
caused him to misperceive reality and consequently
overreact to certain situations, it was probative of his
credibility.
These descriptions of Acosta’s self-reports were
relevant as they bore directly on his credibility, which
was properly before the jury. In rejecting Acosta’s
argument that the evidence of his PTSD diagnosis was
irrelevant because he had been diagnosed two years
before the incident in question and “there [was] no
evidence that Acosta suffered from PTSD” at the time
he shot Sonny, we join our sister circuits who have
deemed admissible evidence of a witness’s
psychological condition even when there was an
interval of several years between the contested
diagnostic evidence and the events to which the
witness testified. See, e.g., United States v. Love, 329
F.3d 981, 985 (8th Cir. 2003) (holding that a diagnosis
of impaired memory five years earlier was not too
remote to be admissible); United States v. Smith, 77
F.3d 511, 516–17 (D.C. Cir. 1996) (indicating that
evidence of severe depression about two years earlier
could be admissible).
Thus, it was not “obvious” or “plain” error for the
district court to admit the evidence. See Draper, 836
F.3d at 1085. Because the admission of the evidence
was not obviously erroneous, the fact that Acosta’s
PTSD diagnosis was more than two years old went to
the weight of the evidence rather than to its
admissibility. In addition, the PTSD evidence was
contested by Acosta and others, and Acosta’s attorney
conducted significant cross-examination on those
issues. The issue was fully and fairly aired before the

App. 42
jury. There was no “manifest error” in admitting the
evidence.10
And, even assuming, arguendo, that the PTSD
evidence was admitted in error, the admission did not
constitute a “miscarriage of justice,” such that plain
error reversal is warranted. The admission of relevant
evidence, on its face, did not “impair[] the fairness,
integrity, or public reputation of judicial proceedings.”
C.B., 769 F.3d at 1019. In the context of the trial, the
critical issues were the ones resolved by the jury in its
verdict. As the jury was properly instructed, under
applicable federal and state law, a police officer may
not fatally shoot an unarmed, nonthreatening suspect
who was not attempting to flee. Here, from the
cumulative evidence, the jury concluded that Acosta
retreated from Sonny after firing the first shot, and
that Sonny did not approach Acosta with scissors
before the officer fired the fatal shot. Those conclusions
were amply supported by evidence in the record that
had no relation to the PTSD diagnosis. Admission of
the evidence therefore did not constitute a miscarriage
of justice seriously impairing the fairness, integrity, or
public reputation of the judicial proceeding. See C.B.,
769 F.3d at 1019.

10

We are also unpersuaded that our decision will discourage
officers from seeking mental health treatment. The district court
informed Acosta that it was likely to reconsider its ruling in limine
regarding the PTSD evidence if Acosta objected at trial, and he
failed to do so.

App. 43
VI
In sum, this case is largely controlled by our
deferential standards of review. There was sufficient
evidence to support the jury verdict. In light of the jury
verdict, the district court did not err in denying Acosta
qualified immunity on Lam’s Fourth Amendment
claim. The district court did not commit plain error in
its evidentiary rulings. And Acosta did not appeal the
merits of the jury’s decisions on the state law
negligence claims. We affirm the judgment of the
district court on these claims.
However, we conclude that there is insufficient
evidence to support the jury’s verdict in favor of Lam
on his Fourteenth Amendment claim for loss of a
familial relationship with Sonny. We therefore reverse
the district court’s denial of Acosta’s Rule 50(b) motion
on that claim and remand to the district court for
further proceedings. Lam is awarded costs on appeal.
AFFIRMED in Part, REVERSED in Part;
REMANDED.
__________________________________________________
BENNETT, Circuit Judge, dissenting:
I respectfully dissent for two reasons. First, Officer
Jairo Acosta is entitled to qualified immunity on
Plaintiff-Appellee Tan Lam’s Fourth Amendment claim
because Lam identifies no clearly established law that
would have put Officer Acosta on notice that his actions
violated the Fourth Amendment. Second, given the
complete lack of evidence showing that Officer Acosta
suffered from post-traumatic stress disorder (“PTSD”)
at the time of the 2013 incident in question, the district

App. 44
court plainly erred in allowing Lam to admit evidence
of Officer Acosta’s 2011 PTSD diagnosis.1
I.

Relevant Background
A. The Incident2

On September 2, 2013, Lam asked his neighbor to
call the police because his son, Sonny Lam (“Sonny”),
had tried to slap him. Officer Acosta responded to the
call and arrived at Lam’s home. Lam told Officer
Acosta that Sonny had “lost his mind.” Lam then
escorted Officer Acosta into his home, and they went
into Sonny’s bedroom. Sonny was sitting on a chair.
Officer Acosta grabbed Sonny’s shoulder and tried to
pull him out of the room. Sonny, still sitting in the
chair, said, “no, no,” and made punching motions in the
air. According to Lam, Officer Acosta responded by
saying to Sonny, “beat me, beat me.” Sonny then stood
up and pushed Officer Acosta out of the bedroom.
Officer Acosta and Sonny got into a struggle outside
the bedroom door, and Lam moved away from them,
about ten feet down the hallway. Sonny had nothing in
his hands during this struggle with Officer Acosta.
Sonny then grabbed a pair of scissors and stabbed
Officer Acosta on his forearm near his wrist, and
Officer Acosta shot Sonny in the leg. Officer Acosta
1

Although I believe that a new trial is warranted as to all claims,
I agree with the majority’s reversal of Lam’s Fourteenth
Amendment claim.
2

I recite the relevant facts, giving deference to the jury’s findings
and drawing all reasonable inferences in Lam’s favor. See A.D. v.
Cal. Highway Patrol, 712 F.3d 446, 459 (9th Cir. 2013)

App. 45
retreated from Sonny in the confined hallway, and Lam
ran toward Officer Acosta after the shot to find out
what had happened. Officer Acosta told Lam that
Sonny “had a knife,” he “yelled, go back, go back,” and
he cleared his handgun because it had become jammed.
In the meantime, Sonny continued to advance toward
Officer Acosta, although with no scissors. Right after
Lam stepped back as instructed by Officer Acosta, he
heard Officer Acosta fire a second shot. That shot hit
Sonny in the chest in a downward angle, and Sonny fell
to the ground.3 Sonny was taken to the hospital and
died during surgery.
B. The PTSD Evidence
Officer Acosta is an Iraq war veteran and was
discharged from the Army in 2006. Before trial, Officer
Acosta moved in limine to exclude as irrelevant and
unduly prejudicial evidence that he had been diagnosed
with PTSD in 2011, more than two years before the

3

Even drawing all reasonable inferences in Lam’s favor, the
evidence shows that Sonny continued to advance toward Officer
Acosta after the first shot. The bullet hole from the first shot that
went through Sonny’s leg was found in Sonny’s bedroom floor,
confirming that Sonny was in or near his bedroom at the time of
the first shot. Lam testified that Sonny was lying on the ground in
front of Lam’s bedroom after the second shot. Since the two
bedrooms were about ten feet apart according to a diagram of the
home introduced into evidence, Sonny moved about ten feet down
the hallway toward Officer Acosta before the second shot. While
the jury made the special finding that Sonny did not approach
Officer Acosta with scissors before Officer Acosta fired his gun the
second time, the jury never found that Sonny did not approach
Officer Acosta after the first shot; it only found that Sonny did not
approach him with scissors.

App. 46
shooting. He emphasized that Lam failed to show that
the evidence was relevant, as Lam presented no
evidence that he suffered from PTSD at the time of the
shooting. Lam argued that the evidence was relevant
because it showed that Officer Acosta acted
unreasonably during the incident, and it was relevant
to Officer Acosta’s credibility because he had not
disclosed his PTSD diagnosis to his employer. Lam,
however, pointed to no evidence showing that Officer
Acosta suffered from PTSD during the incident. The
district court denied the motion to exclude the PTSD
diagnosis “without prejudice,” noting that “there [are]
a lot of things that are involved in PTSD that may or
may not be relevant as we move through.”4
At trial, Lam’s central theory was that Officer
Acosta acted unreasonably because of his PTSD.
Indeed, Lam’s counsel began his opening statement by
highlighting that Officer Acosta’s PTSD caused him to
act irrationally: “You will hear testimony through the
course of this trial that prior to the shooting,
defendant, Police Officer Acosta, was diagnosed with a
mental health issue, a condition which interfered with
his ability to do his job. . . . The result of [his PTSD]
was that he ignored his training and shot my client’s
mentally ill son in their own home.”
4

I disagree with the majority’s contention that this statement
“suggested that in the absence of additional facts, [the court] was
inclined to exclude the evidence . . . had [Officer Acosta] made a
contemporaneous objection at trial.” Maj. Op. at 36 n.9. Indeed, the
fact that the court allowed Lam during his opening statement to
refer to Officer Acosta’s PTSD (before any additional facts had
been admitted) reveals the opposite—that the court was inclined
to admit the PTSD evidence without any additional facts.

App. 47
Lam introduced, without further objection by
Officer Acosta, substantial evidence related to Officer
Acosta’s PTSD diagnosis. Portions of the deposition
testimony of two Veterans Affairs (“VA”) healthcare
providers were read to the jury. The jury learned the
following through this evidence.
Mary Jimenez, VA nurse practitioner, examined
Officer Acosta in February 2011. At that time, Officer
Acosta self-reported various symptoms he had been
experiencing, including sensitivity to noise,
forgetfulness, feeling anxious or tense, being easily
annoyed and angered, and feeling easily overwhelmed.
He also reported that his symptoms had interfered
with his work in the prior 30 days. Nurse Jimenez, in
consultation with a physiatrist, concluded that Officer
Acosta suffered from PTSD.
VA Dr. Joseph Shuman, a clinical psychologist,
examined Officer Acosta in June 2011. Dr. Shuman
diagnosed Officer Acosta with “prolonged PTSD,”
meaning the symptoms of PTSD had lasted longer than
three months. Dr. Shuman’s notes revealed that Officer
Acosta’s “triggers” included “clearing houses [and]
drawing his weapon.” And that these “triggers” can
cause him to “re-experience[] the trauma” and are
“intensely distressing psychologically.” Dr. Shuman
testified that Officer Acosta reported “irritability,
outbursts of anger which he thinks stems from being
repeatedly exposed to potential danger from IEDs in
Iraq,” and his notes described Officer Acosta as
hypervigilant, meaning he “has a tendency to scan his
. . . environment for threats and to be more on guard
against a potential threat than a person might

App. 48
ordinarily be.” Dr. Shuman met with Officer Acosta
once.
Lam also called an expert clinical psychologist, Dr.
Kris Mohandie, who provided testimony related to
Officer Acosta’s PTSD diagnosis based on his review of
Officer Acosta’s medical records, disciplinary records,
and other materials. Dr. Mohandie never examined
Officer Acosta. Dr. Mohandie testified that a prolonged
PTSD diagnosis means that the “symptoms are likely
to continue” without treatment, but he never opined on
whether Officer Acosta suffered from PTSD at the time
of the incident. He also testified that an officer who is
experiencing symptoms like the symptoms that Officer
Acosta reported in 2011 would have a duty to disclose
those symptoms to his employer.
Lam presented no evidence at trial showing that
Officer Acosta suffered from PTSD or experienced any
PTSD-related symptoms at (or even around) the time
of the incident. Despite the complete lack of evidence,
Lam argued extensively during closing that Officer
Acosta was suffering from PTSD on the day of the
incident and that it caused him to overreact to the
situation: “Officer Acosta knew it was dangerous to go
about performing his duties as a police officer when he
was carrying these demons; demons which he brought
with him back from the time that he served our country
in Iraq”; Officer Acosta’s “judgment may be clouded
because of the horrors that he experienced at war”;
Officer Acosta’s PTSD symptoms “are all
characteristics and feelings, demons, . . . that were
inside of him that he was taking with him every day to
work”; Officer Acosta reported “outbursts of anger” and

App. 49
“he brought those feelings with him into the Lam
family household”; and “Officer Acosta showed up that
day with his demons with him.”
II.

Analysis
A. Officer Acosta is Entitled to Qualified
Immunity

An officer is entitled to qualified immunity if his
conduct did not violate clearly established law. See
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011).
“[C]onduct violates clearly established law when, at the
time of the challenged conduct, ‘the contours of a right
are sufficiently clear’ that every ‘reasonable official
would have understood that what he is doing violates
that right.’” Id. at 741 (internal alterations omitted and
emphasis added) (quoting Anderson v. Creighton, 483
U.S. 635, 640 (1987)). “[T]he clearly established right
must be defined with specificity” and not “at a high
level of generality.” City of Escondido v. Emmons, 139
S. Ct. 500, 503 (2019) (per curiam). Indeed, the
Supreme Court has repeatedly reminded our court of
the requirement to define clearly established law with
specificity. See, e.g., id. at 503 (“Under our precedents,
the [Ninth Circuit’s] formulation of the clearly
established right was far too general.”); Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018) (per curiam)
(“This Court has repeatedly told courts—and the Ninth
Circuit in particular—not to define clearly established
law at a high level of generality.” (quotation marks
omitted) (quoting City and Cnty. of San Francisco v.
Sheehan, 135 S. Ct. 1765, 1775–76 (2015))).

App. 50
“Specificity is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difficult for an officer to determine
how the relevant legal doctrine, here excessive force,
will apply to the factual situation the officer confronts.”
Kisela, 138 S. Ct. at 1152 (alterations omitted) (quoting
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (per
curiam)). And the plaintiff bears the burden of
identifying “sufficiently specific constitutional
precedents to alert [an officer] that his particular
conduct was unlawful.” Shafer v. Cnty. of Santa
Barbara, 868 F.3d 1110, 1118 (9th Cir. 2017). This
means that Lam must “identify a case where an officer
acting under similar circumstances as Officer [Acosta]
was held to have violated the Fourth Amendment.”
White v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam).
Lam fails to meet this burden, as he does not
identify a single case in which an officer acting under
similar circumstances as Officer Acosta was found to
have violated the Fourth Amendment. And under the
Supreme Court’s teachings, similar circumstances
means similar to what happened here—a one-on-one
confrontation, in a confined space, in which a suspect
used a deadly weapon to wound a police officer, was not
disabled by a first shot, and the deadly shot was fired
very shortly after the first.
Lam first argues that Officer Acosta violated clearly
established law because Tennessee v. Garner, 471 U.S.
1 (1985), established “that the use of deadly force
against a non-threatening unarmed suspect is
unreasonable.” But the Supreme Court has already
explained that Garner “lay[s] out excessive-force

App. 51
principles at only a general level” and therefore,
Garner “do[es] not by [itself] create clearly established
law outside ‘an obvious case.’” White, 137 S. Ct. at 552
(quoting Brosseau v. Haugen, 543 U.S. 194, 199 (2004)).
Because Lam does not argue that this is an obvious
case, his reliance on Garner is misplaced.
Even if Lam had argued that this is an obvious case,
the argument would have been unavailing given the
circumstances. The events unfolded and escalated
quickly. Consistent with Lam’s warning that Sonny
had “lost his mind,” Sonny acted erratically by
punching into the air and pushing Officer Acosta out of
the room. Sonny then grabbed a deadly weapon and,
using deadly force, stabbed Officer Acosta. He could
have killed Officer Acosta. Officer Acosta retreated, but
he was in a very tense situation. He had just been
attacked with deadly force, he was in a confined
hallway (and was presumably unfamiliar with the
home’s layout), his handgun had jammed, and Sonny
continued to move toward him, although with no
scissors. In that moment, Officer Acosta had to make
an immediate judgment call—stop Sonny or wait and
see what he would do next, which could again include
a felonious assault with a deadly weapon.5 Officer
Acosta decided to fire a second shot. These facts differ
significantly from the facts in cases in which this court
has found obvious constitutional violations. See, e.g.,

5

See Cal. Penal Code § 245(a)(1), (c). The fact that Sonny moved
without scissors does not mean that an officer under these
circumstances would have known for certain that Sonny did not
have ready access to the scissors or some other weapon (even
viewing the evidence in the light most favorable to Lam).

App. 52
Harris v. Roderick, 126 F.3d 1189, 1203–04 (9th Cir.
1997) (sniper safely hidden on a hill shot a retreating
suspect who had not threatened the officers in any
way).
The remaining cases Lam relies on are equally
unhelpful. Two cases, Estate of Lopez v. Gelhaus, 871
F.3d 998 (9th Cir. 2017), and Hayes v. County of San
Diego, 736 F.3d 1223 (9th Cir. 2013), were decided after
the events here occurred, so they could not have given
Officer Acosta notice that his actions would violate
clearly established law. See Kisela, 138 S. Ct. at 1154
(“[A] reasonable officer is not required to foresee
judicial decisions that do not yet exist in instances
where the requirements of the Fourth Amendment are
far from obvious.”). Moreover, these cases, as well as
the rest of the cases Lam cites, are all materially
different on the facts. See Lopez, 871 F.3d at 1010–13
(evidence supporting that the suspect did not threaten
officers when he was carrying a weapon that looked
like an AK-47, pointed down at the ground, had
displayed no aggressive behavior, and turned around
after an officer shouted “drop the gun”); Hayes, 736
F.3d at 1235 (evidence supporting that the suspect was
complying with an officer’s orders “when he raised the
knife and posed no clear threat at the time he was shot
without warning”); Glenn v. Washington Cnty., 673
F.3d 864, 867–69 (9th Cir. 2011) (three responding
officers confronted the suspect outside his home and
the suspect had not threatened anyone with the knife
or brandished it before the officers fired); Ellis v.
Wynalda, 999 F.2d 243, 245 (7th Cir. 1993) (officer
confronted a suspect, the suspect tossed a jacket and
mesh bag toward the officer and ran away, and the

App. 53
officer shot the suspect in the back); Curnow v.
Ridgecrest Police, 952 F.2d 321, 323, 325 (9th Cir.
1991) (evidence supporting that the suspect did not
reach for a gun before being shot, did not point the gun
at the officers before being shot, and was not facing
them when he was shot). None of these cases involved
a suspect who had attacked and injured an officer with
a deadly weapon moments before the officer used
deadly force.6
The majority discusses two other cases, only one of
which Lam cites, to support its position that the law
was clearly established, Hopkins v. Andaya, 958 F.2d
881 (9th Cir. 1992), and Deorle v. Rutherford, 272 F.3d
1272 (9th Cir. 2001). But, like all of the other cases
that Lam points to, these cases are materially different
on the facts.
In Hopkins, the suspect attacked the officer in a
parking lot, and the officer responded by firing several
shots. 958 F.2d at 883, 886. The officer retreated by

6

Lam also cites Zion v. County of Orange, 874 F.3d 1072 (9th Cir.
2017). But this case is of no use in showing that Officer Acosta’s
conduct violated clearly established law because it was decided
after the events here occurred. See Kisela, 138 S. Ct. at 1154. The
majority relies on Zion, reasoning that two cases cited in Zion
show that the law was clearly established at the time of the
incident here. Maj. Op. at 28–29. The two cases cited in Zion are
Garner, 471 U.S. 1, and Harris, 126 F.3d 1189. As discussed above,
however, Garner “do[es] not by [itself] create clearly established
law outside ‘an obvious case,’” White, 137 S. Ct. at 552 (quoting
Brosseau, 543 U.S. at 199), and Lam does not argue that this is an
obvious case. And the facts in Harris are not at all similar to this
case, and so Harris did not clearly establish that Officer Acosta’s
actions were unlawful. See Harris, 126 F.3d at 1203.

App. 54
“cross[ing] a major thoroughfare, reach[ing] a gas
station and put[ting] a car between himself and his
assailant.” Id. at 887. The unarmed suspect continued
to follow the officer, and the officer fired several more
shots at close range. Id. at 883, 887. Significantly, the
“second use of force occurred several minutes” after the
first shooting. Id. at 886.
In Deorle, at least thirteen officers responded to a
911 call, surrounded Deorle’s home, and were waiting
for negotiators to arrive at the scene. 272 F.3d at 1276.
One officer, who had been at the scene for forty
minutes, “simply fired at Deorle when he arrived at a
spot [the officer] had predetermined.” Id. at 1275,
1281–82. Before the shooting, Deorle had been
“emotionally disturbed” but he “was unarmed, had not
attacked or even touched anyone, had generally obeyed
the instructions given him by various police officers,
and had not committed any serious offense.” Id. at
1275.
The differences between Hopkins and Deorle and
this case “leap from the page.” Kisela, 138 S. Ct. at
1154 (quoting Sheehan, 135 S. Ct. at 1776). Neither
case involved a solo officer in a confined space who,
after having just been stabbed with a deadly weapon,
had to make a quick judgment call on whether he
should risk his life by waiting and seeing what would
happen next or use deadly force.7

7

The majority cites several out-of-circuit cases to support its
conclusion that Officer Acosta’s actions violated clearly established
law. Maj. Op. at 29. But clearly established law in our circuit

App. 55
In sum, Lam identifies no clearly established law
showing that every reasonable officer in Officer Acosta’s
position would have known that it was a Fourth
Amendment violation to fire the second shot. Officer
Acosta is therefore entitled to qualified immunity on
the Fourth Amendment claim.
B. The District Court Plainly Erred in
Admitting the PTSD Evidence
The admission of the PTSD evidence is subject to
plain error review because Officer Acosta failed to
object below.8 “In the civil context, ‘[p]lain error review
requires: (1) an error, (2) the error is plain or obvious,
(3) the error was prejudicial or [a]ffects substantial
rights, and (4) review is necessary to prevent a
miscarriage of justice.’” Draper v. Rosario, 836 F.3d
1072, 1085 (9th Cir. 2016) (alterations in original)
(quoting Hemmings v. Tidyman’s Inc., 285 F.3d 1174,
1193 (9th Cir. 2002)).

“must be ‘controlling’—from the Ninth Circuit or Supreme Court—
or otherwise be embraced by a ‘consensus’ of courts outside the
relevant jurisdiction.”
8

I am sympathetic to Officer Acosta’s contention that his motion
in limine preserved his objections, as the district court necessarily
rejected his primary contention—that absent evidence he was
suffering from PTSD at the time of the shooting, nothing about
PTSD could come into evidence. And, of course, Lam started down
the PTSD road in his opening statement and introduced his PTSD
evidence with no showing that Officer Acosta was suffering from
PTSD at the time of the shooting. Nonetheless, the district court
denied the motion “without prejudice” (though without a reasoned
explanation for the denial), and so Officer Acosta needed to object
at trial to avoid plain error review.

App. 56
The district court erred in admitting the PTSD
evidence. Officer Acosta’s 2011 self-reported symptoms
and PTSD diagnosis alone were irrelevant to his ability
to perceive and react reasonably more than two years
later. See Fed. R. Evid. 401 (“Evidence is relevant if:
(a) it has any tendency to make a fact more or less
probable than it would be without the evidence; and
(b) the fact is of consequence in determining the
action.”). Put another way, with no evidence that he
suffered from the same or similar symptoms in or
around September 2013, his two-year-old diagnosis
fails to show that it is more or less probable that he
had trouble perceiving or reacting reasonably to events
at the time of the incident.9
Lam contends that Officer Acosta’s failure to report
his diagnosis to his employer in 2011 bears on his
credibility. But even if the PTSD evidence were slightly
relevant to Officer Acosta’s credibility, it would be
improper to admit the evidence if there were “even a
modest likelihood of unfair prejudice or a small risk of
misleading the jury.” United States v. Hitt, 981 F.2d
422, 424 (9th Cir. 1992). Here, there was substantially
more than a “modest likelihood of unfair prejudice” or
“a small risk of misleading the jury.” Id. Indeed, the
record shows that Lam did not merely use the PTSD
evidence to implicate Officer Acosta’s credibility.

9

The majority appears to conclude that the PTSD evidence was
relevant to Officer Acosta’s ability to accurately perceive and recall
the incident. Maj. Op. at 37–38. But this wrongly assumes that
Officer Acosta suffered from PTSD at the time of the incident.
There was no evidence that Officer Acosta suffered from PTSD at
the time of the incident.

App. 57
Rather, Lam used the evidence to improperly urge the
jury to find that Officer Acosta acted unreasonably at
the time of the incident because he was then suffering
from PTSD: “Officer Acosta showed up that day with
his demons with him,” and “Officer Acosta knew it was
dangerous to go about performing his duties as a police
officer when he was carrying these demons; demons
which he brought with him back from the time that he
served our country in Iraq.”
The error was plain. Before trial, Officer Acosta’s
motion in limine notified the district court that the
PTSD evidence was irrelevant because Lam had
produced no evidence that Officer Acosta suffered from
PTSD at the time of the incident. Though the district
court denied the motion, it questioned the relevancy of
the evidence. Lam then presented no evidence during
trial showing that Officer Acosta suffered from PTSD
at the time of the incident. Even so, Lam repeatedly
told the jury that Officer Acosta suffered from PTSD on
the day of the incident and that his PTSD had caused
him to act unreasonably. Thus the record reveals that
Officer Acosta put the court on clear notice that the
evidence was irrelevant, the court expressed
uncertainty about its relevancy, Lam admitted no
evidence showing that Officer Acosta suffered from
PTSD at the time of the incident, and Lam clearly used
the evidence for that improper purpose. These
circumstances show that the error was obvious.10

10

Relying on two out-of-circuit cases, the majority appears to hold
that evidence of Officer Acosta’s PTSD was admissible because it
bore on his credibility, regardless of whether he suffered from
PTSD at the time of the incident. Maj. Op. at 38. The cases the

App. 58
The third plain error factor is satisfied because
Officer Acosta was prejudiced, as there is a “reasonable
probability that the error affected the outcome of the
trial.” United States v. Marcus, 560 U.S. 258, 262
(2010). First, the district court acknowledged that this
was a close case: “[T]he evidence seems to be pointing
– to go one way or the other, but that’s up to the seven
jurors . . . .” Second, the PTSD evidence as presented by
Lam was (improperly) compelling, as according to
Lam’s counsel, it showed that the events at Lam’s
home triggered Officer Acosta’s PTSD, causing him
severe psychological distress and to overreact to the
situation. Lam essentially argued that it was Officer
Acosta’s PTSD that caused him to fatally shoot Sonny.
Indeed, Lam made sure to remind the jury during
closing that Officer Acosta’s PTSD was triggered by
house searches and drawing his weapon, the very “two

majority cites, however, do not support its holding. Indeed, in
United States v. Love, 329 F.3d 981 (8th Cir. 2003), the court
considered certain factors including “whether the witness suffered
from the condition at the time of the events to which the witness
will testify,” before concluding evidence of the witness’s
psychological condition had been improperly excluded. Id. at
984–85. The court in United States v. Smith, 77 F.3d 511 (D.C. Cir.
1996), never determined whether the evidence was admissible but
suggested that it could be admissible if the witness’s medical
records “indicated a relevant, ongoing problem.” Id. at 517
(emphasis added). Significantly, the court noted that “mental
illness is not necessarily admissible as impeachment evidence” and
a court must “consider the medical history of the specific witness
in question so as to render an informed decision regarding the
relevance of that history.” Id. at 516. Thus, contrary to the
majority’s view, these cases do not support that evidence of a
witness’s psychological condition, which could bear on the witness’s
credibility, is per se admissible.

App. 59
things that Officer Acosta did on September 2nd of
2013.” Third, Lam focused on the PTSD evidence
throughout trial to show that Officer Acosta acted
unreasonably. Lam referred to Officer Acosta’s PTSD
at the very beginning of his opening statement, he
admitted substantial evidence at trial that highlighted
Officer Acosta’s PTSD, and he stressed again and again
during closing that Officer Acosta suffered from his
PTSD “demons” on the day of the incident. Though
there was no evidence Officer Acosta suffered from
PTSD on the day of the shooting, Lam used the PTSD
evidence to demonize Officer Acosta—both literally and
rhetorically. Given that this was a close case, that the
PTSD evidence was compelling, and that Lam’s main
theory was that Officer Acosta unreasonably shot
Sonny because of his PTSD, there is, at the very least,
a “reasonable probability that the error affected the
outcome of the trial.” Id.
Finally, review is necessary to prevent a
miscarriage of justice, as “the error seriously impaired
the fairness, integrity, or public reputation of judicial
proceedings.” C.B. v. City of Sonora, 769 F.3d 1005,
1019 (9th Cir. 2014) (en banc) (quoting Diaz-Fonseca v.
Puerto Rico, 451 F.3d 13, 36 (1st Cir. 2006)). Officer
Acosta’s PTSD diagnosis and symptoms were irrelevant
to his actions on the day of the incident, and the court
should have never allowed the evidence to be admitted.
Lam, however, used this irrelevant evidence to support
his central theory; indeed it was a crucial building
block, and thus the evidence tainted the entire trial. It
is a serious injustice to allow a party to use wholly
irrelevant, improperly compelling evidence, to secure a
jury verdict. Under the circumstances, I believe that

App. 60
this is a case in which we should correct the error to
prevent a miscarriage of justice.11
III.

Conclusion

For the reasons stated above, I respectfully dissent.
I would find that Officer Acosta is entitled to qualified
immunity on the Fourth Amendment claim and that
the admission of the PTSD evidence was plain error
requiring a new trial as to all claims.

11

As pointed out in an amicus brief filed in support of Officer
Acosta, allowing the district court’s error to stand will likely
discourage officers from seeking mental health treatment. See
Brief of California State Sheriffs’ Assoc. et al. as Amici Curiae, Dkt
No. 17 at 11–18. Officers should be allowed to seek the treatment
they need without fear that a plaintiff in a civil suit could freely
use a years-old diagnosis against them without even showing it is
relevant to the issues at trial.

App. 61

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
No. 2:15-cv-00531-MCE-KJN
[Filed: November 20, 2018]
_________________________________
TAN LAM,
)
)
Plaintiff,
)
)
v.
)
)
CITY OF LOS BANOS, et al.,
)
)
Defendants.
)
_________________________________)
MEMORANDUM AND ORDER
Through this action Plaintiff Tan Lam (“Plaintiff”),
as a successor-in-interest, sought redress from the City
of Los Banos and Officer Jairo Acosta (hereafter
“Officer Acosta” or “Defendant”) for the shooting death
of his son, Sonny Lam (“Decedent”). This Court granted
in part and denied in part Defendants’ Motion for
Summary Judgment and the case proceeded to trial on
Plaintiff’s remaining claims against Defendant. At the
close of evidence, Defendant moved for judgment as a
matter of law pursuant to Federal Rule of Civil
Procedure 50(a), which Motion the Court denied. The

App. 62
jury thereafter returned a verdict in Plaintiff’s favor
and awarded him $2.75 million. Presently before the
Court is Defendant’s Renewed Motion for Judgment as
a Matter of Law (“JMOL”) Pursuant to Rule 50(b) or,
Alternatively, Motion for a New Trial. ECF No. 185.
For the reasons set forth below, Defendant’s Motion is
DENIED.
ANALYSIS
A JMOL is proper when “the evidence permits only
one reasonable conclusion and the conclusion is
contrary to that reached by the jury.” Lakeside-Scott v.
Multnomah County, 556 F.3d 797, 802 (9th Cir. 2009)
(internal quotation marks and citation omitted); White
v. Ford Motor Co., 312 F.3d 998, 1010 (9th Cir. 2002).
To justify relief through a JMOL, there must be a
“complete absence of probative facts to support the
conclusion reached so that no reasonable juror could
have found for the nonmoving party.” Eich v. Board of
Regents for Central Missouri State Univ., 350 F.3d
752, 761 (8th Cir. 2003) (quotation marks and citations
omitted). While the Court should review the evidence
comprising the record, it should “not make credibility
determinations or weigh the evidence” and further
should construe all evidence in the light most favoring
the nonmoving party. Reeves v. Sanderson Plumbing
Co., 530 U.S. 133, 150-51 (2000); see also E.E.O.C. v.
Go Daddy Software, 581 F.3d 951, 961 (9th Cir. 2009).
In assessing a motion for JMOL, then, the jury’s
verdict is entitled to substantial deference. A.D. v.
Calif. Highway Patrol, 712 F.3d 446, 453 (9th Cir.
2013). The jury’s verdict must be upheld if there is
sufficient evidence to support its findings, even where

App. 63
contrary findings are possible. Escriba v. Foster
Poultry Farms, Inc., 743 F.3d 1236, 1242 (9th Cir.
2014). Because it is a renewal of a pre-verdict Rule
50(a) motion, a post-verdict Rule 50(b) motion is
limited to the grounds asserted in the Rule 50(a)
motion. E.E.O.C., 581 F.3d at 961. A party cannot
properly raise arguments in its renewed motion for
JMOL that it did not raise in its Rule 50(a) motion. Id.
As an alternative to his request for JMOL,
Defendant advocates for a new trial on grounds that
the verdict ultimately reached by the jury was against
the weight of the evidence. That request is consistent
with the language of Rule 50(b), which specifically
states that a Rule 50(b) motion may include “an
alternative or joint request for a new trial under Rule
59.”
A district court has discretion to grant a new trial
when the jury’s verdict is contrary to the “clear weight
of the evidence,” is based on false evidence, or would
result in a miscarriage of justice. Silver Sage Partners,
Ltd. v. City of Desert Hot Springs, 251 F.3d 814, 819
(9th Cir. 2001); Rattray v. City of Nat’l City, 51 F.3d
793, 800 (9th Cir. 1994). The standard for assessing a
motion for new trial differs from that applicable to a
motion for JMOL under Rule 50(b) inasmuch as even if
the verdict is supported by enough evidence to survive
a 50(b) challenge, the Court in ruling on a new trial
request has the obligation to set aside the verdict under
Rule 59(a) if the verdict runs afoul of the “clear weight”
of the evidence that has been presented. See Molski v.
M.J. Cable, Inc., 481 F.3d 724, 729 (9th Cir. 2007).

App. 64
A verdict is against the clear weight of the evidence
when, after giving full respect to the jury’s findings, the
judge “is left with the definite and firm conviction that
a mistake has been committed” by the jury. Landes
Const. Co., Inc. v. Royal Bank of Canada, 833 F.2d
1365, 1371-72 (9th Cir. 1987) (citations omitted). In
ruling on a motion for new trial, “the judge can weigh
the evidence and assess the credibility of witnesses,
and need not view the evidence from the perspective
most favorable to the prevailing party.” Air-Sea
Forwarders, Inc. v. Air Asia Co., Ltd., 880 F.2d 176,
190 (9th Cir. 1989); see also United States v.
Kellington, 217 F.3d 1084, 1095 (9th Cir. 2000).
Defendant can move for a partial new trial as long as
the issues on which a new trial is sought are distinct
enough that retrial as to those issues is not unjust to
the non-moving party, here Plaintiff. Pumphrey v.
K.W. Thompson Tool Co., 62 F.3d 1128, 1133-34 (9th
Cir. 1995).
Defendant’s Motion for JMOL fails because there
was sufficient evidence from which the jury could find
in Plaintiff’s favor. Given the fact that resolution of this
case largely hinged on credibility determinations that
the jury resolved against Defendant and inferences the
jury was required to make from the evidence, and
because this Court cannot discount those
determinations, it cannot conclude that the evidence
permits only a conclusion contrary. This case is not
appropriate for JMOL, and Defendant’s request to that
effect is DENIED.
Nor can this Court, having considered the record in
its entirety, find that the jury’s verdict herein was

App. 65
contrary to the clear weight of the evidence. As stated
above, the import of the evidence largely hinged on the
respective believability of the parties, and it was up to
the jury to find the relevant facts. This Court has not
been left with a “firm and definite conviction” that the
jury got it wrong, and Defendant’s request for a new
trial is also DENIED.
Finally, Defendant’s request that the Court find
that he is entitled to qualified immunity also cannot
carry the day.1 The jury found the following facts:
(1) Sonny Lam stabbed Officer Acosta with a pair of
scissors; (2) Sonny Lam did not grab Officer Acosta’s
firearm prior to Officer Acosta firing the first gunshot;
(3) Officer Acosta retreated from Sonny Lam after
firing the first gunshot; and (4) Sonny Lam did not
approach Officer Acosta with scissors before Officer
Acosta fired his gun the second time. Given those
findings, even if the Court could determine that Officer
Acosta was entitled to qualified immunity regarding
the first gunshot, the jury found with respect to the
second shot that Officer Acosta was retreating and was
no longer being approached with scissors. There is
simply no way given the factual determinations
reached by the jury that the Court can determine
Officer Acosta is entitled to immunity with regard to
the second gunshot. Accordingly, the jury’s verdict will
stand.

1

The Court agrees with Plaintiff that Defendant effectively failed
to raise this issue in his pre-verdict motion, but it is not convinced
that failure results in a waiver. If anything, Defendant waived the
issue by, as explained below, failing to submit adequate factual
questions to the jury for resolution.

App. 66
CONCLUSION
For the foregoing reasons, Defendant’s Renewed
Motion for Judgment as a Matter of Law Pursuant to
Rule 50(b) or, Alternatively, Motion for a New Trial
(ECF No. 185) is DENIED.
IT IS SO ORDERED.
Dated: November 19, 2018
/s/ Morrison C. England, Jr.
MORRISON C. ENGLAND, JR
UNITED STATES DISTRICT JUDGE

App. 67

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
CASE NO: 2:15!CV!00531!MCE!KJN
[Filed: August 16, 2018]
____________________________________
TAN LAM,
)
)
v.
)
)
CITY OF LOS BANOS, ET AL.,
)
____________________________________)
JUDGMENT IN A CIVIL CASE
XX !!

Jury Verdict. This action came before the
Court for trial by jury. The issues have been
tried and the jury has rendered its verdict.

IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED
IN ACCORDANCE WITH THE JURY
VERDICT RENDERED 8/15/2018
Marianne Matherly
Clerk of Court
ENTERED: August 16, 2018
by:

/s/ J. Donati
Deputy Clerk

App. 68

APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
No. 2:15-cv-00531-MCE-KJN
[Filed: August 15, 2018]
__________________________________________
TAN LAM, as successor-in-interest to
)
decedent SONNY LAM
)
(aka Son Tung Lam) and individually,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF LOS BANOS, a municipal
)
corporation; JAIRO ACOSTA,
)
individually and in his official capacity
)
as a Police Officer for the CITY OF
)
LOS BANOS,
)
)
Defendants.
)
__________________________________________)
VERDICT FORM
We, the jury, unanimously, find as follows:

App. 69
FOURTH AMENDMENT
QUESTION 1: Did Defendant Jairo Acosta use
unreasonable force against Sonny Lam in violation of
the Fourth Amendment?
YES X NO ____
If you answered “yes” to Question 1, please proceed
to the next question.
If you answered “no,” please proceed to Question 5.
QUESTION 2: Was Defendant Jairo Acosta’s use of
unreasonable force a cause of Sonny Lam’s injury,
damage, harm, or death?
YES X NO ____
If you answered “yes” to Question 2, please proceed
to the next question.
If you answered “no” to Question 2, please proceed
to Question 5.
BANE ACT
QUESTION 3: Did Defendant Jairo Acosta
intentionally interfere with Decedent Sonny Lam’s civil
rights by threats, intimidation, or coercion?
YES ___ NO X
Please proceed to the next question.

App. 70
FOURTEENTH AMENDMENT
QUESTION 4: Did Defendant Jairo Acosta violate
Plaintiff Tan Lam’s right to have a familial
relationship with his son, Sonny Lam, in violation of
the Fourteenth Amendment?
YES X NO ____
Please proceed to the next question.
NEGLIGENCE
QUESTION 5: Was Defendant Jairo Acosta
negligent under state law in the death of Sonny Lam?
YES X NO ____
If you answered “yes” to Question 5, please proceed
to Question 6.
If you either answered “no” or did not answer each
and every one of the foregoing questions, please sign
and return this verdict form.
Otherwise, if you answered “no” to Question 5, but
answered “yes” to any of the foregoing questions, please
proceed to Question 8.
QUESTION 6: Was Defendant Jairo Acosta’s
negligence a substantial factor in causing the death of
Decedent Sonny Lam?
YES X NO ____
If you answered “yes” to Question 6, please proceed
to Question 7.

App. 71
If you answered “no” to Question 6, please proceed
to Question 8.
NEGLIGENT INFLICTION OF EMOTIONAL
DISTRESS
QUESTION 7: Was Jairo Acosta’s negligence a
substantial factor in causing serious emotional distress
to Tan Lam?
YES X NO ____
Please proceed to the next question.
DAMAGES
To reiterate, you should proceed to Question 8 only
if you answered “yes” to Questions 2, 3, 4, 6 or 7.
QUESTION 8: What are Sonny Lam’s pre-death
damages for past noneconomic loss, including physical
pain/mental suffering?
$250,000.00
Please proceed to the next question.
QUESTION 9: What are Plaintiff Tan Lam’s
damages for past and future loss of Decedent Sonny
Lam’s love, companionship, comfort, care, assistance,
protection, affection, society, and moral support?
Past: $750,000.00
Future: $1,250,000.00
Total: $2,000,000.00
Please proceed to the next question.

App. 72
QUESTION 10: If you answered yes to Question 7,
what are Plaintiff Tan Lam’s emotional distress
damages? If you answered “no” to Question 7, please
leave this answer blank.
$500,000.00
Please proceed to the next question.
QUESTION 11: Was Sonny Lam negligent in
contributing to his own harm?
YES X NO ____
If you answered “no” to Question 11, please proceed
to Question 14.
If you answered “yes” to Question 11, please proceed
to the next question.
QUESTION 12: Was Sonny Lam’s negligence a
substantial factor in causing the harm?
YES X NO ____
If you answered “no” to Question 12, please proceed
to Question 14.
If you answered “yes” to Question 12, please proceed
to the next question.
QUESTION 13: What is the percentage of harm
(must equal 100%), if any, for:
Jairo Acosta: 70
SonnyLam: 30

App. 73
PUNITIVE DAMAGES
QUESTION 14: Was the conduct of Defendant Jairo
Acosta malicious, oppressive or in reckless disregard of
Decedent Sonny Lam’s rights?
YES X NO ____
[Illegible Writing in Original]
Please sign and date this verdict form, and proceed
to answer the Special Interrogatories included on the
following pages.
Dated: 8/15/2018

/s/ Amy Brady/AMY BRADY
JURY FOREPERSON

SPECIAL INTERROGATORIES
If you answered “yes” to Question 2, please answer
the following Special Interrogatories. If you answered
“no” to Question 2, please leave these Special
Interrogatories blank and sign and date this form.
SPECIAL INTERROGATORY 1: Did Sonny Lam
stab Officer Acosta with a pair of scissors?
YES X NO ____
SPECIAL INTERROGATORY 2: Did Sonny Lam
grab Officer Acosta’s firearm prior to Officer Acosta
firing the first gunshot?
YES ___ NO X
SPECIAL INTERROGATORY 3: Did Officer Acosta
retreat from Sonny Lam after firing the first gunshot?
YES X NO ____

App. 74
SPECIAL INTERROGATORY 4: Did Sonny Lam
approach Officer Acosta with scissors before Officer
Acosta fired his gun the second time?
YES ___ NO X
Dated: 8/15/2018

/s/ Amy Brady/AMY BRADY
JURY FOREPERSON

App. 75

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-17404
D.C. No. 2:15-cv-00531-MCE-KJN
Eastern District of California, Sacramento
[Filed: November 16, 2020]
__________________________________________
TAN LAM, as Success-In-Interest to
)
decedent Sonny Lam (aka Son Tung Lam), )
)
Plaintiff-Appellee,
)
)
v.
)
)
CITY OF LOS BANOS, a Municipal
)
Corporation,
)
)
Defendant,
)
)
and
)
)
JAIRO ACOSTA, Police Officer for the
)
City of Los Banos,
)
)
Defendant-Appellant.
)
__________________________________________)
ORDER

App. 76
Before: THOMAS, Chief Judge, and FRIEDLAND and
BENNETT, Circuit Judges.
The panel has voted to deny the petition for
rehearing. Chief Judge Thomas and Judge Friedland
have voted to deny the petition for rehearing en banc.
Judge Bennett has voted to grant the petition for
rehearing en banc.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has
requested a vote on the petition for rehearing en banc.
Fed. R. App. P. 35(b).
The petition for rehearing and the petition for
rehearing en banc are denied.

